Untidt States fflnurt nf Appeals
For the Seventh Circuit
Chicago, Illinois 60604
November 10,2020

Before:
Diane P. Wood, Circuit Judge
David F. Hamilton, Circuit Judge
Amy J. St. Eve, Circuit Judge

KESHA S. PACKER,
Plaintiff-Appellant,
No. 20-2584

v.

] Appeal from the United
] States District Court for
] the Eastern District of
] Wisconsin.

1
WISCONSIN DEPARTMENT OF
CORRECTIONS,
Defendant-Appellee.

] No. 2:lS-cv-02024

3
] J. P. Stadtmueller,
1 Judge.

ORDER
Onconsiderationofthepapers-filed inthisappealand re\dew_of±heshort record,.
IT IS ORDERED that this appeal is DISMISSED for lack of jurisdiction.
Rule 4(a) of the Federal Rules of Appellate Procedure requires tliat a notice of
appeal in a civil case be filed in the district court within 30 days of the entry of the
judgment or order appealed. In this case judgment was entered on June 16,2020, and
the notice of appeal was filed on August 20,2020,35 days late. The district court denied
an extension of the appeal period because the motion was untimely. See 28 U.S.C.
§ 2107(c); Fed. R. App. P. 4(a)(5). The district court was correct in doing so. And, this
court is not empowered to grant an extension. See Fed. R. App. P. 26(b).

UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF WISCONSIN
KESHA S. PACKER,
Plaintiff,
Case No. 18-CV-2024-JPS
7th Cir. Case No. 20-2584

v.
WISCONSIN DEPARTMENT OF
CORRECTIONS,

ORDER

Defendant.
1.

INTRODUCTION
On December 26, 2018, Plaintiff filed a pro se complaint, alleging

Defendant discriminated against her by subjecting her to a hostile work
environment. (Docket #1). About eight months later, Attorney Jeff Scott
Olson entered a notice of appearance on behalf of Plaintiff. (Docket #17). On
June 16, 2020, the Court granted Defendant's motion for summary
judgment and dismissed Plaintiff's action with prejudice. (Docket #40).
Attorney Olson advised Plaintiff via e-mail that "[w]e have the right to file
an appeal within[] 30 days" but recommended against appealing because
"the Seventh Circuit Court of Appeals in Chicago would probably reach the
same conclusion." (Docket #45 at 7). In the same communication, Attorney
Olson offered to "continue to help [Plaintiff] deal with the State of
Wisconsin when [she] needfs] it." (Id.) To date, Attorney Olson has not filed
with this Court a motion to withdraw as counsel.
Notwithstanding Attorney Olson's continued representation of
Plaintiff, Plaintiff independently reached out to "the Eastern District Circuit
Court directly and talked to clerks regarding where to find information for

Case 2:18-cv-02024-JPS Filed 10/01/20 Page 1 of 10 Document 48

pro se litigants and rules for Seventh District Circuit Court." (Docket #42 at
1). Call logs show Plaintiff dialed the phone number to the Seventh Circuit
Clerk's office on June 19, 2020. (Docket #45 at 8). The staff person the
Plaintiff spoke with directed her to informational resources titled "Brief x
Information Sheet for Pro Se Litigants" and "Pro Se Instructions for
Preparing Docketing Statement." (Docket #42 at 1). Plaintiff subsequently
filed a motion for leave to proceed in forma pauperis with the United States
Court of Appeals for the Seventh Circuit. (Docket #45 at 18-23).
If Plaintiff filed a notice of appeal or an appellant's brief with the
Seventh Circuit, this Court has not received it.1 Plaintiff appears to have
believed the in forma pauperis motion and affidavit served as "[her] actual
appeal." (Docket #42 at 1). Plaintiff's mailing receipt shows she mailed her
"appeal" on July 11,2020, with projected delivery on July 15,2020. (Docket
#45 at 9). The Seventh Circuit received Plaintiff's in forma pauperis motion
on July 30, 2020 and sent her a letter the same day, notifying Plaintiff that
she had no current appeal. (Id. at 17). Plaintiff, who was traveling from
August 7-13, did not receive the Seventh Circuit's July 30 notification until
on or after August 13. (Docket #42 at 1).
On August 17 and 18, 2020, Plaintiff communicated with a staff
person, Jim Richmond, at the Seventh Circuit, who advised her that she
should have filed a notice of appeal with the district court, and to move for
an extension of time to file the same. (Docket #45 at 24-26). Mr. Richmond
acknowledged Plaintiff's "affidavit/motion for IFP was dated July 10th,"
but informed her that, pursuant to Federal Rule of Appellate Procedure

'The record does include a cover sheet titled "Brief for Appellant" but there
is no formal brief attached. (Docket #45 at 16).
Page 2 of 10

Case 2:18-CV-02024-JPS Filed 10/01/20 Page 2 of 10 Document 48

4(d), the district court would use July 30 as the "filed date if [he] were to
send [her] brief to the district court to act as [her] notice of appeal." (Id.) On
August 20, 2020, this Court received Plaintiffs Notice of Appeal. (Docket
#43).
As discussed below, because Plaintiff's motion to extend the time to
file a notice of appeal notice of appeal is untimely, the Court is obliged to
deny the motion.
2.

TIMELINESS ANALYSIS
2.1

Plaintiffs motion to extend the time to file a notice of
appeal does not meet the requirements of the applicable
rules.

Plaintiffs motion to extend the time to file a notice of appeal must
be denied because it does not meet the threshold requirements of the
applicable Federal Rules of Appellate Procedure. Appeals of a final order
and judgment must be taken by filing a notice of appeal with the district
court within thirty days. Fed. R. App. P. 3(a); Fed. R. App. P. 4(a)(1)(A).
There are two exceptions to the thirty-day timeliness requirement in Rule
4(a)(1)(A). Plaintiffs motion appears to invoke both exceptions. (Docket
#42). However, she has not satisfied the requirements to claim either.
The first exception plainly does not apply to Plaintiff. Rule 4(a)(6)
allows a district court to reopen the time to file a notice of appeal when the
moving party fails to receive notice of the judgment within twenty-one days
of its entry. Fed. R. App. P. 4(a)(6). Attorney Olson received notice of the
Court's summary judgment order on the day it was issued, and forwarded
the order to Plaintiff on the same date. (Docket #45). Neither counsel nor
Plaintiff lacked notice; the Court cannot reopen the time to file a notice of
appeal on this basis.

Page 3 of 10
Case 2:18-cv-02024-JPS Filed 10/01/20 Page 3 of 10 Document 48

The second exception also does not apply to Plaintiff. Rule 4(a)(5)
allows a district court to extend the time in which to file a notice of appeal
if the party (1) moves for such relief within thirty days of the original thirtyday deadline and (2) shows excusable neglect or good cause in failing to
timely file a notice of appeal. Fed. R. App. P. 4(a)(5)(A)(i)-(ii). This
exception cannot apply to Plaintiff, as she has not met the Rule's first
requirement of timeliness. Plaintiff had until July 16, 2020 to file a notice of
appeal with the district court; accordingly, she had until August 17, 2020 to
move for an extension of time to file a notice of appeal. Plaintiff did not
meet either deadline. Thus, her motion is not timely.
Although Plaintiff failed, in terms of calendar days, to meet
4(a)(5)(A)(i)'s timeliness requirement, the Court acknowledges that she
faced a tangled set of circumstances that impeded her ability to meet said
requirement. These circumstances approximate "excusable neglect" as
required by Rule 4(a)(5)(A)(ii).2 Excusable neglect generally occurs when a
litigant misses a deadline due to circumstances beyond her control, such as
mail delays or misrepresentations by judicial officers. Prizevoits v. Ind. Bell
Tel. Co., 76 F.3d 132,134 (7th Cir. 1996). Excusable neglect may also extend
to instances of the litigant's own carelessness, mistake, or plausible
misunderstanding of ambiguous procedural requirements. Id.} see also Lewis
v. Sch. Dist. #70, 523 F.3d 730, 740 (7th Cir. 2008) (upholding a finding of
excusable neglect when the defendant untimely filed its Federal Rule of
Civil Procedure Rule 6 motion based on a misunderstanding of the rule and

2 The movant must show "excusable neglect or good cause." Fed. R. App.
P. 4(a)(5)(A)(ii). "Good cause" is a distinct determination and applies only when
the litigant requests the extension before the original 30 days are up. Prizevoits v.
Ind. Bell Tel. Co., 76 F.3d 132,133 (7th Cir. 1996). Good cause does not apply here.
Page 4 of 10
Case 2:18-cv-02024-JPS Filed 10/01/20 Page 4 of 10 Document 48

the magistrate and district judges accepted the motion based on same
misunderstanding). On the other hand, a litigant's inability or refusal to
apprise herself of the plain language of federal rules is not excusable
neglect. Prizevoits, 76 F.3d at 133. Whether the litigant's neglect is
"excusable" is a fact-sensitive and equitable determination for the trial
court. Pioneer Inv. Servs. Co. v. Brunswick Assocs. Ltd. P'ship, 507 U.S. 380,395
(1993).
The Court acknowledges that the facts of Plaintiff's case could add
up to excusable neglect. It appears that there were circumstances beyond
her control that may have led her to file in the wrong venue what she
incorrectly believed was a notice of appeal. First, Plaintiff acted on
information from her counsel, Attorney Olson, who failed to clearly
communicate whether Plaintiff wanted to appeal, whether he would
represent her in an appeal or withdraw as counsel, and how and where she
could proceed pro se.3 (Docket #45 at 7). Second, Plaintiff acted on
incomplete information from the Seventh Circuit—the information sheets
to which she initially was referred do not indicate the venue for filing a
notice of appeal. (Docket #42 at 1). Third, the record suggests (but does not
establish) that some combination of mail delay, delay in the Seventh

3A represented party does not have an affirmative right to submit pro se
briefs or motions. United States v. Giviazdzinski, 141 F.3d 784,787 (7th Cir. 1998); see
also United States v. Rollins, 309 F. App’x 37,38 (7th Cir. 2009). The Seventh Circuit
disfavors but does not bar pro se briefs or motions by represented parties. United
States v. Patterson, 576 F.3d 431,436 (7th Cir. 2009). The district court has discretion
over whether to recognize such briefs or motions. Id. at 437; see also Edwards v.
Schrubbe, No. 10-CV-729, 2013 WL 1808260, at *1 (E.D. Wis. Apr. 29, 2013)
(recognizing pro se motion from a represented litigant, when the motion alleged
ineffective assistance of counsel by the litigant's pro bono attorney).

Page 5 of 10
Case 2:18-cv-02024-JPS Filed 10/01/20 Page 5 of 10 Document 48

Circuit's acceptance of her filing, or the Seventh Circuit's failure to forward
her filing to the Court4 contributed to her missing the July 16 deadline.5
(Docket #45 at 9,17-18).
On the other hand, the mandates of Rules 3 and 4 are
straightforward; unlike in Lewis, there is no showing here that the
applicable rules are so confusing as to have led even court officials to
misinterpret them. The applicable Rules of Appellate Procedure are
available on the Seventh Circuit's website; Plaintiff viewed that website to
access information sheets but failed to apprise herself of and follow the
applicable rules. Similarly, on its website, the Eastern District makes
available to pro se litigants a notice of appeal form; Plaintiff did not use this
form until her August 20 filing.
Although unclear from the record, Attorney Olson's apparent
omissions may have contributed to Plaintiff's failure to follow clear

4If, that is, the Seventh Circuit had a duty to forward her filing. When a
party mistakenly files a notice of appeal in the court of appeals, the clerk of that
court must note the date of receipt and forward the notice to the district clerk. Fed.
R. App. P. 4(d). The notice of appeal must state the party taking the appeal, the
order being appealed, and the court to which the appeal is taken. Fed. R. App. P.
3(c)(l)(A)-(C). Plaintiffs in forma pauperis filing, while not formally a notice of
appeal, did fulfill Rule 3's content requirements. However, the Seventh Circuit's
response indicates Plaintiff had no current appeal (Docket #45 at 17), i.e. that it did
not read her in forma pauperis filing as a notice of appeal. The Seventh Circuit
elected not to forward Plaintiff's filing to this Court. The Seventh Circuit Local
Rules do not indicate its policy or practice in this regard. Whether the Circuit has,
or should have, a policy or practice to liberally construe pro se filings is far beyond
the scope of this order.
5Further, circumstances beyond Plaintiff's control (the COVID-19 public
health emergency, and counsel’s failure to formally withdraw from the case) may
have impacted her access to in-person or electronic methods that could have
guaranteed timely filing of her notice of appeal.
Page 6 of 10

Case 2:l8-cv-02024-JPS Filed 10/01/20 Page 6 of 10 Document 48

procedural rules.6 Plaintiff may also have bteen similarly impacted by the
misrepresentations or omissions by the Seventh Circuit staff. However,
even if the Court could engage in additional fact-finding to determine
whether Plaintiff s circumstances qualify as excusable neglect, this question
is moot because excusable neglect does not enable the Court to modify the
timeliness requirement of Rule 4.
2.2

The Court may not waive Rule 4(a)(5) (A) (i)'s timeliness
requirement.

Plaintiff has failed to meet Rule 4(a)(5)(A)(i)'s timeliness
requirement, and without timeliness, the Court cannot grant her motion.
Rule 4(a)(5)(A) clearly stipulates that the Court may only grant a motion to
j

extend the time to file a notice of appeal if both its conditions are satisfied.
Fed. R. App. P. 4(a)(5)(A)(i)-(ii) ("[t]he district court may extend the time to
file a notice of appeal if: (i) a party so moves no later than 30 days after the
time prescribed by this Rule 4(a) expires; and... the party shows excusable
neglect or good cause") (emphasis added); see also 28 U.S.C. § 2107(c).
Furthermore, the Court is not at liberty to waive the timeliness
requirement, however compelling Plaintiffs individual circumstances may
be. A district court may not waive a timeliness requirement that is
jurisdictional in nature and delineates the cases a court may hear. Bowles v.
Russell, 551 U.S. 205, 213 (2007). A timeliness requirement is jurisdictional
when the requirement is authorized by statute. Compare id. at 210 (finding
Federal Rule of Appellate Procedure 4(a)(6) to be jurisdictional in nature
because its timeliness requirement is explicitly stated in 28 U.S.C. §
2107(c)(1)—(2)) with Hamer v. Neighborhood Hous. Servs. of Chi., 138 S. Ct. 13,
6At the same time, a litigant may be held responsible for the omission of
her attorney. Pioneer, 507 U.S. at 396.
Page 7 of 10

Case 2:18-cv-02024-JPS Filed 10/01/20 Page 7 of 10 Document 48

21 (2017) (finding Federal Rule of Appellate Procedure 4(a)(5)(C) not to be
jurisdictional in nature because its timeliness requirement does not appear
in 28 U.S.C. § 2107(c)).
Additionally, a timeliness requirement is jurisdictional when it
relates to a transfer of adjudicatory authority from one Article III court to
another Article III court. Henderson ex rel. Henderson'v. Shinseki, 562 U.S. 428,
437 (2011) (recognizing that the applicable timeliness requirement was
indeed authorized by statute but declining to extend Bowles because the
requirement applied to adjudication by administrative agencies, not Article
III courts). Finally, even if a litigant's failure to meet the timeliness
requirement is due to his or her reliance on the court's own representation
that it will accept an untimely filing, timeliness requirements that are
jurisdictional may not be waived. Bowles, 551 U.S. at 214.
The timeliness requirement that governs Plaintiff's motion is
jurisdictional in nature and cannot be waived. Rule 4(a)(5)(A) spells out the
same requirement authorized by statute in 28 U.S.C. § 2107(c). The Rule
relates to transfer of adjudicatory authority between Article III courts for
review. The Rule is a textbook example of a non-waivable jurisdictional
requirement. Even if it was the Seventh Circuit's (not Plaintiff's or
counsel's) error or omission that caused Plaintiff to miss her filing deadline,
judicial misrepresentation is not grounds for waiver of this jurisdictional
timeliness requirement.
It is true that Plaintiff's specific motion to extend the time to file a
notice of appeal, if granted, would place the question of excusable neglect
back before this Court and not the Court of Appeals—in other words,
granting the motion would not directly effect a transfer of adjudicatory
authority from the District Court to the Circuit Court. Henderson is silent on
Page 8 of 10

Case 2:18-cv-02024-JPS Filed 10/01/20 Page 8 of 10 Document 48

what, if any, "direction" the transfer of adjudicatory authority between
Article III courts must travel, or how proximate the transfer must be, to
qualify as a jurisdictional timeliness requirement. Such a distinction
/

requires a narrow reading of Henderson and Bowles as well as disregarding
Congress's intent that § 2107(c) act as a strict jurisdictional requirement. The
Court cannot rule based on such a minute technicality.
The Court appreciates that Plaintiff is in difficult position. However,
her motion is untimely and the Court cannot waive timeliness
requirements.
3.

PLAINTIFF'S MOTION FOR LEAVE TO PROCEED IN FORMA
PAUPERIS
A plaintiff wishing to proceed on appeal in forma pauperis must

submit an affidavit and motion. 28 U.S.C. § 1915(a)(1). A plaintiff may not
proceed on appeal without prepayment of the filing fee unless the trial
court certifies in writing that the appeal is taken in "good faith." 28 U.S.C.
§ 1915(a)(3). Because Plaintiffs motion to extend the time to file a notice of
appeal is untimely, the Court will not assess whether her motion for leave
to appeal in forma pauperis is taken in good faith and will deny that motion
as moot.
Accordingly,
IT IS ORDERED that Plaintiffs motion for an extension of time to
file a notice of appeal (Docket #42) be and the same is hereby DENIED; and
IT IS FURTHER ORDERED that Plaintiffs motion for leave to
appeal in forma pauperis (Docket #47) be and the same is hereby DENIED as
moot.

Page 9 of 10
Case 2:18-cv-02024-JPS Filed 10/01/20 Page 9 of 10 Document 48

Dated at Milwaukee, Wisconsin, this 1st day of October, 2020.
BY THE-COURT:
(
%

*

JXSta.
Letter
U.St Disfrict Judge

T

Page 10 of 10
.
Case 2:18-CV-02024-JPS Filed 10/01/20 Page 10 of 10 Document 48

UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF WISCONSIN
KESHAS. PACKER,
Plaintiff,
Case No. 18-CV-2024-JPS

v.
WISCONSIN DEPARTMENT OF
CORRECTIONS,

JUDGMENT

Defendant.
Decision by Court. This action came on for consideration before the Court
and a decision has been rendered.
IT IS ORDERED AND ADJUDGED that Defendant's motion for
summary judgment (Docket #23) be and the same is hereby GRANTED;
and
IT 1$ FURTHER ORDERED AND ADJUDGED that this action be
and the same is hereby DISMISSED with prejudice.
APPROVED:

U.S^istrict judge

June 16,2020
Date

GINA M. COLLETT!
Clerk of Court
s/Jodi L. Malek
By: Deputy Clerk

Case 2:18-cv-02024-JPS Filed 06/16/20 Page 1 of 1 Document 41

Mmhb States Court of
For the Seventh Circuit
Office of the Clerk

219 South Dearborn Street, Room 2722
Chicago, Illinois 60604
312-435-5850
July 30/2020
Dear Sir or Madam,
This letter is in regards to your most recent correspondence with the U.S. Court of
Appeals. The enclosed documents are being returned to you unfiled. You do not have a
current appeal,
Please see the Federal Rules of Appellate Procedure and Circuit Rules of the United
States Court of Appeals for the Seventh Circuit for questions you may have.
Sincerely,
Pro Se Clerk

Gmail - Per our conversation

8/18/2020

Gmail

Key P <kespack@gmail.com>

Per our conversation
7 messages
Key P <kespack@gmail.com>
To: JimJRiehmond@ca7.uscourts.gov

Mon, Aug 17,2020 at 0:26 PM

Hello Mr. Richmond,

Just spoke with you minutes ago regarding an appeal I filed as a pro se litigant. I have attached all the documents that
were returned to me. I apologize for so many attachments, byt my scanner is a home scanner and does not scan a large
volume of documents at one time. FYI also the attached contains a duplicate of a page because when scanning it
scanned 2 pages at once so I rescanned the last two pages.
Kesha Packer
(414)614-0333
«.e*w,viv t—•' ***—*•. rfe.

4 attachments
fh 2G2O0816_170116. PDF
^ 509K
m 20200816 165949.PDF
m 2418K
20200816J65052.PDF
“ 5548K
fft 20200816_165445.PDF
m 13837K
Jim Richmond <Jim_Richmond@ca7.uscouris.gov>
To: Key P <kespack@gmail.com>

Mon, Aug 17,2020 at 7:51 PM

Kesha,

Hi! I got your message with the attachments. I appreciate you sending them along to me. Basically i see your appellant's
brief and motion/affidavit for IFP. I don’t see that you ever Bled a notice of appeal. Did you ever file a document entitled
notice of appeal? or did anyone tell you to file that you needed to file a notice of appear?
Also, did we return your original envelope to you that shows that the postmark by the post office? If not, do you have any
other proof of when the envelope was mailed to us?
I ask these questions as you have only 30 days to file a notice of appeal with the District Court, otherwise your appeal
could be considered untimely. I see the July 10th and July 11th date on your two documents, but we didn’t receive them
until July 30th (according to our received stamp). Only the District Court Judge can grant an extension of time to file a
notice of appeal. I'm citing to the Federal Rule of Appellate Procedure 4.
Let me know if this is everything you had sent us, and whether or not you had a notice of appeal. And whether or not you
had your original envelope sent back or any other proof of mailing. Thanks
Jim
312-435-5383
(Quoted text hidden}

> <20200816 170116.PDF>
> <20200816J65949.PDF*

><20200816 165052.PDF>
><20200816 165445.PDF>
Key P <kespack@gmail.com>

Mon, Aug 17.2020 at 10:04 PM

tittps:r/maU.googie.comftnatfAj/O?ih=85f498cc67&viev/=ptSseafcft=aliapermtliM=threa<J-a%3Ar-6864137616932e23783&simpl=ms0-a%3Ar-68O13432... 1/3

8/18/2020
To: Jim Richmond <Jlm_Richmond@ca7.uscourts.gov>

Gmail - Per our conversation

Hello Mr, Richmond,
Hope you don't mind, but to save time I answered your questions in the email. Answers italicized and in bold font to make
it easier to identify.
Kesha Packer
On Mon, Aug 17,2020 at 7:51 PM Jim Richmond <Jim_Ricftrttond@ca7.uscoui1s.gov> wrote:
; Kesha,
i Hi! I got your message with the attachments. I appreciate you sending them along to me. Basically I see your
■ appellant's brief and motion/affidavit for IFP. I don’t see that you ever filed a notice of appeal. Did you ever file a
\ document entitled notice of appeal? Or did anyone tell you to file that you needed to file a notice of appeal? No to
both questions, l called the office prior to fflingh and spoke with someone who directed me to the pro se
litigant resporces for Seventh Circuit and i reviewed and printed them and followed them accordingly. (Brief
i and one was Dockeyting Statement)
Also, did we return your original envelope to you that shows that the postmark by the post office? If not, do you have
any other proof of when the envelope was mailed to us? No my original envelope was not returned to me. I was
assuming that all my documents including the envefeope would be scanned in when the court received it so
j
that the record would reflect the postmark date. Nonetgheless, I did take pictures prior to placing in the mail at
: the post office located in Roswell, GA. (Please attached.)
; [Quotes text hidden)
-r/vsT.lvr-r'.. flj-.

,w« *

0i attachments.zip
1=1 8736K

Key P <kespaek@gmail.com>
To: Jim Richmond <Jim_Richmond@ca7.uscoufis.gov>

Mon, Aug 17,2020 at 11:12 PM

Sorry for the typos. ♦»
{Quoted text hidden)
Jim Richmond <JimJRicHrriond@ca7.uscourte.gov>
To; Key P <kespack@gmail.com>

Mon, Aug 17,2020 at 11:21 PM

Kesha,
Hi. Thanks for your feedback and the envelope images. I can see that mailing label on your envelope says July 11th.
That is the same date noted in your brief. I saw the affidavit/motion for IFP was dated July 10th. However, our court
received the documents on July 30th. Pursuant to FRAP 4{d), it says the district court should use our received stamp as
the filed date if I were to send your brief to the district court to act as your notice of appeal.
Unfortunately, that would make the notice of appeal (using July 30th as the filed date) appear to be untimely as you had
only 30 days to appeal from the date the district court entered its judgment which i believe was on June 16th.
I am so sorry that you weren't given clearer instructions, especially to file a notice of appeal with the district court. That is
how an appeal is started when you want to challenge the decision of the district court. However, you might still be able to
send a motion for extension of time to file your notice of appeal pursuant to FRAP 4(a)(5).... see http://www.ca7.uscourts.
gov/ruies-procedures/ruies/rules.htm#frap4.... to toe district court.
You file a motion for extension of time with toe district court in Milwaukee and ask the district court judge for more time to
appeal and provide your reasons why you need more time; even if you have to explain the confusing instructions provided
by our clerks that you spoke with. With your motion, also include a copy of your notice of appeal to file (which you could
follow this link to form 1 to see how basic the notice of appeal needs to be.... htip://www.ca7,uscourts.gov/rulesprocedures/rules/ru1es.htm#form1 ).

if you have any questions, please let me Know. I think this is your best course of action to move forward. I can hold your
brief and affidavit/motion for IFP and if toe district court judge approves your motion for extension of time to file and
accepts the notice of appeal, I can then file your brief and motion for IFP into the appeal that Milwaukee transmits us
noreiiant in PRAP 5/rtl Thonkcl

Gmail - Per our conversation

8/18/2020

Jim
312-435-5383
fQuoted text hidden]

<attachments.zip>

Mon, Aug 17,2020 at 11:42 PM

Key P <kespack@gmaiI.com>
To: Jim Richmond <Jim_Richmond@ca7.uscourts.gov>

I appreciate you getting back tome, but I'd like to give you acail in the morning because I have questions.
i'll also go to the post office first thing in the morning before reaching out to your office so that I can see if they can assist
me with tracking when it arrived to the courts. Also, I am thinking that with that being a federal building mail should be
scanned and logged in. My envelope should be logged in and stamped received.
I have some other things needing clarification as well.
Talk to you soon
(Quoted text hidden]

Jim Richmond <Jim_Richmond@ca7.uscourts.gov>
To: Key P <kespack@gmail.cam>

Tue, Aug 18.2020 at 4:49 PM

t

Kesha:
Thanks for talking with meandTettingme know what you had found, and found Out Whether by scanor taking a
picture, can you share the tracking number for the envelope that came to our Court (the 219 S. Dearborn Street, Chicago,
It 60604) address? No rush. You take care of your motion and everything you need to do first, You can get back to me
any time later this week. Tlranks!

Jim
{Quoted text hidden]

ftttos:?/mail4jdb9le'G6m/mal)/u/0?it#85f498to6?&new^pt&search~al^

m

UNITED STATES COURT OF APPEALS FOR THE SEVENTH CIRCUIT

Office of the Clerk
Phone: <3i2) 435-5850
www.cd7.uscaurts.gov

Everett McKinley Dirksen United StafcsCourfhouse
Room 2722 - 219 S. Dearborn Street
Chicago, Illinois 6Q604

NOTICE OF CASE OPENING
August 20/2020
KESHAS. PACKER,
Plaintiff - Appellant

No. 20-2584

V.

WISCONSIN DEPARTMENT OF CORRECTIONS,
Defendant - Appellee
_________ _____

District Court No. 2:18-cv-02024-JPS
Eastern District of Wisconsin
District Judge J. P. Stadtmueller
Clerk/Agency Rep Gina M. Colletfi
Case filed: 08/21/2020

Case type: cv/pri
Fee status: IFP pending in D.C.
Date of Judgment: 06/16/2020
Date NOA filed: 08/20/2020
The above-captioned appeal has been docketed in the United States Court of Appeals for the
Seventh Circuit.
Deadlines:

20-2584

Kesha S. Packer

20-2584

Kesha S. Packer

Docketing statement

due

08/27/2020

wmmmMmmsmmmmmi
Transcript information

sheet

09/03/2020

;7U7Z: tit-:
NOTE: This notice is issued to counsel of record, in furtherance of the revised Circuit Rule 3(d), to provide necessary
information regarding this appeal. Please verify this notice for accuracy. Counsel are encouraged to provide a fax

and/or e-mail address to the court If any corrections are necessary, please indicate those corrections on this notice
and return it to the Clerk's Office within ten (10) days.
IBIS NOTICE SHALL NOT ACT AS A SUBSTITUTE FOR MOTIONS FOR NON-INVOLVEMENT /
SUBSTITUTION OF COUNSEL. COUNSEL ARE STILL REQUIRED TO FILE THE APPROPRIATE
MOTIONS.
Important Scheduling Notice!
Heariitg ndric^ are mailed shortiy before the date of oral ^:gurfient. Crimixral appeals are scheduled shortly
after the filing Of the appellant's mairi ferief; civil appeals are scheduled after the filing of the appellee's brief.
If you foresee that you will be unavailable during a period in which your appeal might be scheduled, please
write the clerk advising him of the time period and the reason for your unavailability. The court's calendar is
located at http://www.ca7.uscourts.gov/cal/argcalendar.pdf. Once an appeal has been scheduled for oral
argument, it is very difficult to have the date changed. See Cir.R. 34(e).

form name: c7_Docket_NoHce(fonn ID: 108)

I

i

